RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-277
HSBC Holdings PLC, et al.,

Petitioners,
v.
Irving H . Picard and
Securities Investor Protection Corporation,

Respondents.
As required by Supreme Court Rule 33.1(h), I, Kenneth J. Caputo, counsel for
Respondent Securities Investor Protection Corporation and a member of the Bar of
this Court, certify that the Brief in Opposition to the Petition for a Writ of
Certiorari contains 3,942 words, excluding the parts of the brief that ar e exe mpted
by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 29, 2019.

Securities Investor Protection
Corporation
1667 K Street, NW, Suite 1000
Washington, DC 20006

